<html>
<title> - OVERSIGHT OF THE ENVIRONMENTAL PROTECTION AGENCY'S PROGRESS IN IMPLEMENTING INSPECTOR GENERAL AND GOVERNMENT ACCOUNTABILITY OFFICE RECOMMENDATIONS</title>
<body><pre>[Senate Hearing 114-306]
[From the U.S. Government Publishing Office]




                                                        S. Hrg. 114-306
 
    OVERSIGHT OF THE ENVIRONMENTAL PROTECTION AGENCY'S PROGRESS IN 
  IMPLEMENTING INSPECTOR GENERAL AND GOVERNMENT ACCOUNTABILITY OFFICE 
                            RECOMMENDATIONS

=======================================================================

                                HEARING

                               before the


 SUBCOMMITTEE ON SUPERFUND, WASTE MANAGEMENT, AND REGULATORY OVERSIGHT

                                 of the

                              COMMITTEE ON
                      ENVIRONMENT AND PUBLIC WORKS
                          UNITED STATES SENATE

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             JUNE 14, 2016

                               __________

  Printed for the use of the Committee on Environment and Public Works
  
  
  
  
  
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]   







       Available via the World Wide Web: http://www.gpo.gov/fdsys
       
       
       
       
                               _________ 

                   U.S. GOVERNMENT PUBLISHING OFFICE
                  
 20-773 PDF                 WASHINGTON : 2016       
____________________________________________________________________
 For sale by the Superintendent of Documents, U.S. Government Publishing Office,
Internet:bookstore.gpo.gov. Phone:toll free (866)512-1800;DC area (202)512-1800
  Fax:(202) 512-2104 Mail:Stop IDCC,Washington,DC 20402-001                        
       
       
       
       
               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS
               

                    ONE HUNDRED FOURTEENTH CONGRESS
                             SECOND SESSION

                  JAMES M. INHOFE, Oklahoma, Chairman
DAVID VITTER, Louisiana              BARBARA BOXER, California
JOHN BARRASSO, Wyoming               THOMAS R. CARPER, Delaware
SHELLEY MOORE CAPITO, West Virginia  BENJAMIN L. CARDIN, Maryland
MIKE CRAPO, Idaho                    BERNARD SANDERS, Vermont
JOHN BOOZMAN, Arkansas               SHELDON WHITEHOUSE, Rhode Island
JEFF SESSIONS, Alabama               JEFF MERKLEY, Oregon
ROGER WICKER, Mississippi            KIRSTEN GILLIBRAND, New York
DEB FISCHER, Nebraska                CORY A. BOOKER, New Jersey
MIKE ROUNDS, South Dakota            EDWARD J. MARKEY, Massachusetts
DAN SULLIVAN, Alaska

                 Ryan Jackson, Majority Staff Director
               Bettina Poirier, Democratic Staff Director
                              ----------                              

 Subcommittee on Superfund, Waste Management, and Regulatory Oversight

                   MIKE ROUNDS, South Dakota Chairman
DAVID VITTER, Louisiana              EDWARD J. MARKEY, Massachusetts
MIKE CRAPO, Idaho                    THOMAS R. CARPER, Delaware
JOHN BOOZMAN, Arkansas               JEFF MERKLEY, Oregon
DAN SULLIVAN, Alaska                 CORY A. BOOKER, New Jersey
JAMES M. INHOFE, Oklahoma (ex        BARBARA BOXER, California(ex 
    officio)                             officio)
    
    
    
    
    
                            C O N T E N T S

                              ----------                              
                                                                   Page

                             JUNE 14, 2016
                           OPENING STATEMENTS

Rounds, Hon. Mike., U.S. Senator from the State of South Dakota..     1
Markey, Hon. Edward J., U.S. Senator from the State of 
  Massachusetts..................................................     3
Inhofe, James M., U.S. Senator from the State of Oklahoma........    69

                               WITNESSES

Larsen, Alan, Counsel to the Inspector General, Office of 
  Inspector General, U.S. Environmental Protection Agency and 
  U.S. Chemical Safety And Hazard Investigation Safety Board.....     4
    Prepared statement...........................................     6
    Responses to additional questions from Senator Inhofe........    12
    Response to an additional question from Senator Sullivan.....    19
Gomez, Alfredo, Director, Natural Resources and Environment Team, 
  U.S. Government Accountability Office..........................    20
    Prepared statement...........................................    22
Responses to additional questions from:
    Inhofe.......................................................    54
    Sullivan.....................................................    60


    OVERSIGHT OF THE ENVIRONMENTAL PROTECTION AGENCY'S PROGRESS IN 
  IMPLEMENTING INSPECTOR GENERAL AND GOVERNMENT ACCOUNTABILITY OFFICE 
                            RECOMMENDATIONS

                              ----------                              


                         TUESDAY, JUNE 14, 2016

                                U.S. SENATE
         Committee on Environment and Public Works,
Subcommittee on Superfund, Waste Management, and Regulatory 
                                                  Oversight
                                                    Washington, DC.
    The committee met, pursuant to notice, at 3:05 p.m. in room 
406, Dirksen Senate Office Building, Hon. Mike Rounds (chairman 
of the subcommittee) presiding.
    Present: Senators Rounds, Markey, Crapo, Boozman and 
Inhofe.

            OPENING STATEMENT OF HON. MIKE ROUNDS, 
          U.S. SENATOR FROM THE STATE OF SOUTH DAKOTA

    Senator Rounds. The Environment and Public Works 
Subcommittee on Superfund, Waste Management, and Regulatory 
Oversight is meeting today to conduct a hearing entitled 
Oversight of the Environmental Protection Agency's Progress in 
Implementing Inspector General and Government Accountability 
Office Recommendations.
    Approximately 1 year ago we held our first subcommittee 
hearing with Inspector General Arthur Elkins of the 
Environmental Protection Agency, who testified about his 
office's work in conducting audits and investigations related 
to EPA agency actions and programs. Since then we have held 
hearings conducting oversight on various aspects of the EPA 
rulemaking process to make certain the regulations the EPA 
implements are promulgated in an open, transparent process with 
adequate public participation.
    Unfortunately, we have found this is often not the case. 
The GAO is an independent, non-partisan agency that prepares 
reports that are either mandated by public laws or committee 
reports, or at the request of Congress. They provide 
comprehensive audits examining the economy and the efficiency 
of government operations.
    The Office of Inspector General reports to both the EPA and 
Congress regarding any problems and deficiencies relating to 
the administration of the Agency's programs and operations, and 
also serves as the investigative arm of the EPA, examining 
possible criminal or civil violations by the Agency. These 
offices conduct Agency oversight to determine whether Federal 
funds are being spent efficiently and effectively, the Agency 
is being managed property, and to make certain that Government 
programs and policies are meeting their objectives in an open, 
transparent manner, and are complying with the applicable 
statutes when promulgating regulations.
    In addition to conducting their own investigations, the GAO 
and OIG make recommendations to the EPA that, when successfully 
implemented in a timely fashion, can be effective at correcting 
mismanagement and holding the EPA accountable in properly 
fulfilling its mission and responsibly managing taxpayer 
dollars.
    The GAO and the IG prepare regular reports detailing EPA's 
progress in implementing these recommendations. While both 
offices track the EPA's implementation of these corrective 
actions for several years after the recommendation is made, 
testimony today reveals that the EPA is slow to implement 
recommendations and there may be a need for these offices to do 
more to followup on open recommendations.
    When the EPA does not implement these recommendations or 
delays their implementation while continuing to conduct 
business as usual, the mismanagement at the Agency continues 
and taxpayer dollars are improperly managed. Most alarmingly, 
the EPA continues to promulgate regulations that impose huge 
costs on the U.S. economy and American families, while not 
using proper safeguards.
    In the past year alone, the EPA has moved forward with its 
finalizing the Waters of the U.S. Rule, the Clean Power Plan, 
and tightening ozone NAAQS. These regulations will impose 
unprecedented costs on American families and the U.S. economy. 
Further, two of these regulations are on hold by the courts.
    When the EPA finalizes regulations through an improper 
process without implementing recommendations that would make 
the process better, the result is bad regulations, and that is 
what we have seen from the EPA. Additionally, in the past year, 
the EPA has made headlines with the Gold King Mine spill and 
the Flint water crisis. Now, more than ever, we need the EPA to 
get back to its core functions rather than pursuing burdensome 
regulations based on shaky legal ground. The GAO and the OIG 
play an important role in this.
    Our witnesses today will provide us with an update on the 
EPA's progress in implementing recommendations and help us 
conduct oversight over the EPA's process for implementing 
corrective actions.
    I am happy to have with us today Alan Larsen, the Counsel 
to the Inspector General of the Environmental Protection 
Agency, and Alfredo Gomez, the Director of the Natural 
Resources and Environmental Team of the Government 
Accountability Office.
    I would like to thank our witnesses for being with us 
today, and I look forward to hearing from your testimony.
    Now I would like to recognize my friend, Senator Markey, 
for a 5-minute opening statement.

          OPENING STATEMENT OF HON. EDWARD J. MARKEY, 
          U.S. SENATOR FROM THE STATE OF MASSACHUSETTS

    Senator Markey. Thank you, Mr. Chairman, and thank you for 
scheduling today's hearing.
    The Government Accountability Office and the Environmental 
Protection Agency's Office of the Inspector General are a vital 
component of governmental integrity. These watchdogs must be 
independent, non-partisan, and maintain the highest ethical 
standards. In addition to fighting fraud, waste, and abuse of 
power, they ensure that Government works the way Congress 
intended, and in a manner that the public deserves.
    From its work uncovering nearly $100 million in wasted 
refundable airline tickets, to probing weaknesses in aviation 
security, to protecting our water supply from damage caused by 
oil and gas production, GAO has provided an invaluable service 
to the American public.
    Inspectors general play an equally important role. The 
Securities and Exchange Commission inspector general uncovered 
the mishandling of whistleblower tips in the Madoff Ponzi 
scheme. In response, Congress passed the Dodd-Frank Act, 
bringing the most significant changes in financial regulation 
since the Great Depression.
    At the EPA, the inspector general has raised concerns 
ranging from how the EPA oversees States' implementation and 
enforcement of programs designed to protect the public from 
bacteria-contaminated beaches to how the EPA conducts proper 
long-term monitoring of Superfund sites and ensuring that they 
are safe for reuse, to how the EPA can improve the review 
process for potentially harmful chemicals.
    EPA has implemented 174 GAO recommendations of the 325 made 
during the last 10 years. When one factors in the 4-year 
average time it takes to implement a GAO recommendation, the 
Agency has a 77 percent implementation rate. This rate is on 
par with other Federal agencies and with the 80 percent 
implementation target for recommendations that GAO has set for 
all agencies.
    The EPA has also worked hard to close out recommendations 
from the inspector general. Over the past 7 years, the 
inspector general has made over 1,700 recommendations to the 
EPA. At the time of the last annual report, only 158 remained 
unimplemented. The EPA is battling diminished resources, a lack 
of authority, and program updates that are underway but 
incomplete. Those struggles are compounded by a 20 percent 
decrease in appropriated funds and a 15 percent loss to its 
work force since 2010.
    If we are going to expect more rapid and complete agency 
responses to GAO and the inspector general recommendations, 
then we must ensure that EPA has access to the resources that 
are necessary to achieve its mission. Just look at Flint, 
Michigan and our Nation's failing water infrastructure, or 
hazardous air water pollutants with health risks that have yet 
to be assessed, or even the harmful pesticides that threaten 
bee populations that are vital to our ecosystem.
    We must recognize that our responsibility in creating those 
problems due to the prevailing dissidence between required 
funding levels and actions that should be taken by EPA are 
necessary to keep Americans safe. We must also combat other 
obstacles that hinder agency oversight. Both GAO and the 
inspectors general provide a crucial public service, and it is 
imperative that you are provided with all the tools you need to 
do your job effectively.
    Now, I have been made aware of the possibility that a 
Department of Energy contractor who cooperated with the GAO 
investigation that I requested may have been fired in 
retaliation for their cooperation. We should be doing 
everything possible to enhance GAO's ability to obtain the 
information it needs to undertake its mission of ensuring ``the 
accountability of the Federal Government for the benefit of the 
American people and protect those who help in such efforts.''
    Inspectors general's investigations can also be slowed 
without a review of all the critical materials. Preventing 
investigators from timely access to all records, documents, and 
other materials is contrary to the fundamental idea of 
transparency that Congress intended when establishing the 
inspector general.
    I thank each of you in advance for your testimony and I 
thank you again, Mr. Chairman, for holding this hearing.
    Senator Rounds. Thank you, Senator Markey.
    Our witnesses joining us for today's hearing are Mr. Al 
Larsen, Counsel to the Inspector General, Office of Inspector 
General, U.S. Environmental Protection Agency and U.S. Chemical 
Safety and Hazard Investigation Safety Board; Mr. Alfredo 
Gomez, Director, Natural Resources and Environment Team, U.S. 
Government Accountability Office.
    Gentlemen, your written statements will be made a part of 
the record without objection and at this time we will turn to 
both of you. Mr. Larsen, if you would like to begin, for your 
5-minute opening statements.

  STATEMENT OF ALAN LARSEN, COUNSEL TO THE INSPECTOR GENERAL, 
  OFFICE OF INSPECTOR GENERAL, U.S. ENVIRONMENTAL PROTECTION 
AGENCY AND U.S. CHEMICAL SAFETY AND HAZARD INVESTIGATION SAFETY 
                             BOARD

    Mr. Larsen. Good afternoon, Chairman Rounds, Ranking Member 
Markey and members. I am Alan Larsen, counsel to the Inspector 
General for the Environmental Protection Agency and the U.S. 
Chemical Safety and Hazard Investigation Board. I would like to 
thank the Subcommittee for shining a spotlight on unimplemented 
OIG recommendations. I will provide an overview of what happens 
after OIG makes a recommendation and progress to date by both 
agencies with regard to implementation.
    Most of our audit and program evaluation work is performed 
in accordance with generally accepted Government auditing 
standards. Findings and recommendations for correcting any 
deficiencies are issued to agency officials as part of the 
final report, and that is also made public.
    The impact of a recommendation may be direct cost savings 
or an improvement in program efficiency or effectiveness. A 
recommendation may ensure the integrity of a program or result 
in other benefits.
    Once OIG issues a report, it is up to the agency to 
implement recommendations. However, OIG staff tracks each 
recommendation until it is fully implemented, which is a 
significant part of our oversight work.
    OIG lists unimplemented recommendations in our semiannual 
reports to Congress. Our most recent report cited 148 
recommendations unimplemented by EPA and 10 recommendations 
unimplemented by CSB. The average number of unimplemented 
recommendations for the last seven semiannual reporting periods 
was 144, or 133 for EPA and 11 for CSB. The numbers for the 
first and the most recent of those periods were virtually 
identical: 159 and 158. In other words, overall, the agencies 
have been implementing recommendations at the same pace that 
new ones are being added to the list.
    Of the pending unimplemented recommendations reported for 
EPA, the time elapsed since report issuance ranges from less 
than 1 year to more than 9 years. The age of CSB's 
unimplemented recommendations ranges from nearly 3 years to 
more than 5 years.
    Government auditing standards require that OIG obtains the 
agency's views regarding proposed recommendations. If the 
agency agrees with the recommendations, it must provide 
intended corrective actions and estimated completion dates. 
OIG's project team assesses the agency's proposal and 
determines if it sufficiently meets the intent of our 
recommendations.
    When the agency does not fully agree with OIG's findings or 
recommendations, we note that disagreement in our report. OMB 
requires an audit resolution process; EPA fulfills this 
requirement via its Manual 2750, which establishes that the 
agency is responsible for ensuring that management decisions on 
OIG recommendations are implemented.
    In most cases, OIG and the agency agree on final report 
recommendations. When there is a disagreement, we follow an 
escalating resolution process with three tiers as needed. OIG 
would not remove a recommendation from our unimplemented list 
based on agency refusal to act or because too much time has 
passed.
    The EPA chief financial officer and OMB managing director 
are responsible for assessing and reporting to OIG on each 
agency's progress. In turn, the OIG monitors, reviews, and 
verifies that progress. In addition, OIG conducts followup 
audits. These assignments are based on size, complexity, and 
significance of the issues and recommendations in the original 
report.
    In conclusion, accomplishing the tasks I have discussed 
requires sufficient appropriated funds from Congress. During 
the past year, we have returned $16 for every dollar given to 
us. When OIG is unable to carry out its responsibilities 
because of inadequate funding, it is a net loss to the Federal 
Government and the American taxpayers. While I am aware that 
this Subcommittee is not an appropriations committee, I 
respectfully ask for any help that you can provide us in this 
regard, and we certainly appreciate your support for our work.
    Mr. Chairman, this concludes my prepared statement. I will 
be pleased to answer any questions you or the members have.
    [The prepared statement of Mr. Larsen follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]     
    
    
    
    
    Senator Rounds. Mr. Larsen, thank you for your testimony.
    We will now hear from Mr. Alfredo Gomez. Mr. Gomez, you may 
begin.

  STATEMENT OF ALFREDO GOMEZ, DIRECTOR, NATURAL RESOURCES AND 
    ENVIRONMENT TEAM, U.S. GOVERNMENT ACCOUNTABILITY OFFICE

    Mr. Gomez. Chairman Rounds, Ranking Member Markey, and 
members of the Subcommittee, good afternoon. I am pleased to be 
here today to discuss the status of recommendations GAO has 
made to the U.S. Environmental Protection Agency.
    As you have both noted, the mission of EPA is to protect 
human health and the environment. We have conducted reviews 
focused on various aspects of EPA's programs and operations, 
and through these reviews we have made numerous recommendations 
to improve EPA's performance and the efficiency and 
effectiveness of its programs and operations.
    My statement today focuses on two main areas: first, the 
status of EPA's implementation of GAO's recommendations from 
fiscal years 2006 through 2015, and how these recommendations 
relate to EPA programs and operations; and, No. 2, benefits 
realized by EPA based on our work.
    As part of our process, we followup on recommendations we 
have made and report their status to Congress. Agencies have a 
responsibility to monitor and maintain accurate records on the 
status of our recommendations. We then followup with EPA at 
least once a year to determine the extent to which our 
recommendations have been implemented and the benefits that 
have been realized. We consider a recommendation implemented 
when EPA has taken actions that address the issue or deficiency 
we have identified.
    With regard to the first area on the status of GAO 
recommendations, we found that of the 325 recommendations we 
made EPA had implemented 174. The remaining 151 recommendations 
remain open or not implemented. For recommendations that we 
made over a 4-year period, that is, from Fiscal Year 2006 to 
2011, EPA had implemented 77 percent. For recommendations made 
within the last 4 years, that is, from Fiscal Year 2012 to 
2015, EPA had implemented 17 percent.
    Experience has shown that it takes time for some 
recommendations to be implemented. It is for this reason that 
we actively track unaddressed or open recommendations for 4 
years.
    The 325 recommendations fall into six categories, such as 
EPA management and operations, water-related issues, and 
environmental contamination and cleanup. With regard to the 151 
recommendations that EPA has not yet implemented, 70 percent of 
these recs we made in the last 4 years and mainly concern EPA 
management and operations and water-related issues.
    For example, in 2014, we reported on EPA's Regulatory 
Impact Analyses, or RIAs, which are analyses of the benefits 
and costs of proposed regulations. We found that the 
information that EPA included and presented in the RIAs was not 
always clear. We recommended that EPA enhance the Agency's 
review process for RIAs to ensure that information for selected 
elements is transparent and clear, such as when discussing 
regulatory alternatives. While EPA agreed with this 
recommendation, the recommendation remains open until we see 
evidence that EPA has taken action to enhance its review 
process.
    We have also identified many benefits, such as programmatic 
and process improvements based on EPA taking actions on our 
recommendations. For example, we issued several reports on 
drinking water and wastewater infrastructure issues. In 
particular, we reported on the drinking water and wastewater 
infrastructure needs of rural and small communities.
    We found that these communities face potentially 
duplicative application requirements when applying to multiple 
State and Federal programs, making it more costly and time-
consuming to complete the application process. We recommended 
that EPA work with the U.S. Department of Agriculture to 
develop a uniform preliminary engineering report template, a 
key step in the application process, and they have done so.
    In summary, our recommendations provide a good opportunity 
to improve the Government's fiscal position, better serve the 
public, and make Government programs more efficient and 
effective. EPA's implementation of our recommendations will 
help the Agency continue to improve its performance and the 
efficiency and effectiveness of its operations.
    We will continue to work with Congress to monitor and draw 
attention to this important issue.
    Chairman Rounds, Ranking Member Markey, and members of the 
Subcommittee, that completes my statement. I would be happy to 
answer any questions.
    [The prepared statement of Mr. Gomez follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]     
    
    
    
    Senator Rounds. Thank you for your testimony, Mr. Gomez.
    Senators will now have 5 minutes each for questions. I will 
begin.
    Mr. Larsen, the OIG's most recent semiannual report to 
Congress cited 148 unimplemented EPA recommendations. Your 
testimony mentions annual followup audits, but how else does 
the OIG work with EPA to ensure these recommendations are 
thoroughly implemented in a timely manner?
    Mr. Larsen. The Agency has the official and ultimate 
responsibility to track and implement these recommendations, 
and they do that. We keep track, ourselves, of their progress, 
and at the end of each semiannual reporting period we compare 
with the Agency's tracking and we make sure that we agree on 
what are open recommendations and what are unimplemented 
recommendations. At that point we sometimes check back and say 
you promised progress as of a certain date and you haven't done 
it; why is that not happening. We also will do followup audits. 
In addition to tracking the existing recommendations, we may 
launch a new project to find out what is going on, why things 
aren't progressing.
    Senator Rounds. Do you report your progress back to 
Congress as well, on the implementations and the followup? Is 
there a followup on a regulation-by-regulation basis that 
Congress receives as well?
    Mr. Larsen. The primary reporting back is in the semiannual 
report, and in that we have an appendix that report-by-report, 
recommendation-by-recommendation indicates the status of the 
unimplemented recommendations; how far behind they are and what 
the Agency's reason for not having made the progress is.
    Senator Rounds. Thank you.
    Mr. Gomez, the EPA has implemented 77 percent of 
recommendations that the GAO made from 2006 to 2011, as you 
indicated, and only 17 percent of the recommendations were made 
from 2012 to 2015. These figures also reveal that for older 
recommendations, from 2006 to 2011, nearly 30 percent remain 
unimplemented. What is the average amount of time the EPA takes 
to implement GAO's recommendations and why does it take years 
to implement your recommendations?
    Mr. Gomez. So, in most cases, our experience has shown that 
it takes agencies, EPA among them, about 4 years to implement 
our recs. So we make a variety of recommendations. Some of them 
do require a little bit more time, for example, if the 
recommendation is where EPA has to work with stakeholders, 
whether they be other Federal agencies, State agencies, to put 
together different memorandums or strategies. In other cases, 
though, where we make a recommendation, for example, that EPA 
use existing web tools that it has to provide information to 
the public to clarify information, in those cases we think that 
the Agency could actually do those a lot faster than a couple 
of years.
    As I mentioned in my statement, we also track them for 4 
years very carefully. We have a website where you can see for 
each report the status of each recommendation, similar to what 
the IG does. So anyone can see what the status is. We do 
encourage the agency to implement the recommendations as 
quickly as possible.
    Senator Rounds. Thank you, Mr. Gomez.
    Mr. Larsen, you indicated there was a cost-savings for the 
amount of money that we spend in OIG activities versus the 
return. Can you elaborate on the amount of cost-savings your 
office finds at the EPA and how you find these cost-savings and 
how you make the recommendation?
    Mr. Larsen. Yes. What I can't do, and I am sorry to say I 
won't be able to do, is to take an individual recommendation 
and say that one will end up saving $1 million. So we can't do 
that. There are any number of recommendations we make that we 
don't attempt to and are unable to assign a dollar figure to.
    So those $16 per dollar comes from the projects we do where 
there is an identifiable dollar savings; and, as I say, many of 
the other projects may have, I don't know, a more intangible 
benefit, whether it is health benefits or a process savings. So 
we don't try to establish a cost-savings where it would be a 
fanciful number.
    Senator Rounds. I understand. Thank you. My time has 
expired.
    Senator Markey.
    Senator Markey. Thank you very much, Mr. Chairman.
    Director Gomez, for the EPA to properly evaluate and 
regulate toxic substances, it is essential that they have the 
most up-to-date chemical and toxicity data available. One key 
recommendation you have made is that EPA needs to improve its 
efforts to test and evaluate chemicals. To what extent will the 
recently passed TSCA reform legislation assist EPA in 
addressing GAO's open chemical safety recommendations?
    Mr. Gomez. So we believe that some of the provisions in the 
new TSCA law would help EPA address some of the open 
recommendations that we have. For example, one of the 
recommendations we made was that EPA should take steps to 
obtain more chemical toxicity and exposure information; and the 
new TSCA legislation does enhance EPA's authority to obtain 
such information from chemical manufacturers and processors. So 
once EPA takes action on those measures, we will then 
reevaluate to see if we can close those recommendations.
    Senator Markey. Thank you so much, because when we were 
working together on a bipartisan basis on that legislation, it 
was important, as we negotiated TSCA, that we remove the catch-
22 that forced EPA to know a chemical was dangerous before it 
could require safety testing to be done on that chemical. And I 
am also that EPA's new authority will help with that as well.
    Again, Director Gomez, in your testimony you stated that 
the EPA has implemented 174 out of 325 recommendations made in 
the last 10 years. However, GAO recognizes that recommendations 
cannot be implemented overnight and takes an average of 4 years 
to implement.
    When you look at recommendations made four or more years 
ago, EPA has an implementation record that is just about equal 
to the 80 percent Government-wide average. Do you agree, 
Director Gomez, that EPA is putting a concerted effort toward 
implementing GAO recommendations in a manner that is similar to 
other Federal agencies?
    Mr. Gomez. So, right, EPA's average is similar to the 
agency-wide average. What we have done with EPA most recently 
was we decided to do outreach and update twice a year because 
we wanted to get more current information from EPA so that 
perhaps we could close more of the recommendations, or at least 
just work with them in terms of if there are some 
recommendations where they disagree with us, so we agree to 
disagree.
    But the recommendations for us is a pretty high bar. I 
mean, it is a recommendation that is made based on having good 
understanding of what is happening on the ground, what the 
requirements are that the Agency is supposed to be doing, what 
the reasons are as to why they are not doing that or why there 
is a deficiency. So our recommendations are fairly well 
supported and articulated, so we want the Agency to implement 
our recommendations.
    Senator Markey. Mr. Larsen, let me come over to you. In the 
last 7 years EPA has received over 1,700 recommendations from 
the inspector general. Since, in the last annual report, only 
148 of those 1,700 remained unimplemented, would you agree, Mr. 
Larsen, that EPA generally does act on your recommendations in 
about 4 years, similar to EPA's record in implementing GAO 
recommendations?
    Mr. Larsen. Yes, Senator Markey. We don't track them 
exactly that way, but in preparation for this hearing I asked 
our staff to try to come up with that number and we came up 
with 3.7 years on average for implementing the recommendations 
by the Agency.
    Senator Markey. So, in general, what you are saying is that 
GAO and the inspector general at the department at the EPA have 
a very similar view of the speed with which EPA does respond.
    Mr. Larsen. That is correct, Senator.
    Senator Markey. And that it is in line with all other 
agencies in the Federal Government.
    Mr. Larsen. That one I can't answer. We don't know where 
the other agencies stand, but for us it appears we are in line 
with the GAO.
    Senator Markey. I guess the fact that we were having a 
hearing, had you had to compile that information wouldn't give 
you enough time to then compare it to the rest of the whole 
Government.
    But do you agree with that, Mr. Gomez, that in general it 
is in the ballpark?
    Mr. Gomez. So that has been our experience, that 
Government-wide it generally takes agencies a little longer, 
and that is why we track it each year closely.
    Senator Markey. OK, beautiful. Thank you.
    Thank you, Mr. Chairman.
    Senator Rounds. Thank you.
    Chairman Inhofe.
    Senator Inhofe. Mr. Gomez, in response to a request that I 
submitted, the GAO issued a legal opinion on December 14th of 
2015 concerning the EPA's use of social media to promote its 
WOTUS rule. Because GAO found EPA had violated the Anti-
Deficiency Act, the EPA was required to submit a report to the 
President and Congress and GAO. Now, the first thing I would 
ask is, what is the status of that request?
    Mr. Gomez. So we have not received the Anti-Deficiency Act 
report from EPA.
    Senator Inhofe. Are they making any statement that they 
deny that this was a violation of the Anti-Deficiency Act?
    Mr. Gomez. Based on our finding, as you noted, the agencies 
are required to submit a report to Congress, to the President 
through OMB, and at the same time submit that report to the 
comptroller general, who is my boss.
    Senator Inhofe. Now, do you have any idea of any kind of 
discussion or response to that particular one that has taken 
place since 2015?
    Mr. Gomez. I do not, but what we can do is we can inquire 
with EPA through our general counsel's office and get back to 
you.
    Senator Inhofe. OK, so it would be in line for me or any 
Member of Congress to request that you get a status report on 
that and anything that we want to release for public 
consumption would be acceptable?
    Mr. Gomez. Yes, I can take that back.
    Senator Inhofe. All right.
    Mr. Gomez. Thank you.
    Senator Inhofe. All right, I think we should do that, 
because in this case this is a statute that is on the books. It 
is one that we knew this was going on at the time. It is on an 
issue, the WOTUS issue is arguably the most significant issue 
of all the over-regulations that we have, at least in my State 
of Oklahoma, and I think it is really incumbent to do that.
    Mr. Larsen, as you know, I have been a frequent requester 
of the IG investigations reviews. For instance, in response to 
a request I submitted in 2011, the IG made several 
recommendations for EPA to update its conflict of interest 
policies and peer review process in the 2013 report. This is 
something that Senator Boozman has called to our attention in 
these meetings; it is something that is significant.
    Now, I understand the EPA has reported the recommendations 
are complete, but the OIG has not conducted any formal followup 
review to assess the adequacy of EPA actions. Does the IG plan 
to followup on EPA's actions per this report?
    Mr. Larsen. As I mentioned, we do followup reports. We are 
entering into, as we head into summer, the work plan planning 
process, and out of that comes our discretionary projects. I 
don't know if that is on tap for next year for followup. I will 
check with our entities that do those reports and get back to 
your staff.
    Senator Inhofe. What concerns me is if it is a case of a 
corporation, corporations or an individual could own stock in a 
corporation, the corporation could own two or 300 or many, many 
more. So that could fall as a conflict of interest. When it is 
an environmentalist group of some kind, you don't have that, 
you don't have the reams and reams.
    So I assume when you are looking at the reform of a 
conflict of interest, you are taking things like that into 
consideration, and they are looking at it now, is that correct?
    Mr. Larsen. What I don't know is if we have a new project 
planned in that area, and I will get back to you on whether we 
do.
    Senator Inhofe. OK, I appreciate that.
    Mr. Gomez, July 2014, the GAO report found, among other 
things, that the EPA does not properly consider the impact of 
its regulations on employment. The GAO recommended EPA update 
its approach to estimating employment impacts, but the EPA has 
not done so. You have heard, if you watch what goes on in this 
Committee, on three different occasions we have quoted 
Administrator McCarthy when she said that there is no evidence 
that EPA regulations have a negative impact on jobs.
    Senator Capito is sitting over here and her eyes started 
rolling around. There are some things that are so obvious it 
doesn't take that type of a report out there.
    Now, how can McCarthy make such claims when EPA's process 
for evaluating employment impacts remains broken?
    Mr. Gomez. So that was one of our recommendations in the 
report also, for EPA to look closely at the information they 
were using in calculating employment of facts, and to really 
find more current----
    Senator Inhofe. Let me ask both of you a question. I know 
my time has expired, but it is significant to me.
    I agree with Senator Markey when he said that both GAO and 
IG have to be independent. Now, GAO, in my eyes, is independent 
because there is not a relationship in that line. That isn't 
quite true with the IG because isn't the IG actually a part of 
EPA?
    Mr. Larsen. Senator, we are a part administratively, but 
the IG and the OIG do not take direction from the 
administrator; we report results to----
    Senator Inhofe. So you think your level of independence is 
not impaired by that relationship?
    Mr. Larsen. That is correct.
    Senator Inhofe. Thank you, Mr. Chairman.
    Senator Rounds. Thank you.
    Senator Boozman.
    Senator Boozman. Thank you, Mr. Chairman, and thank you and 
Senator Markey for having this hearing today.
    Mr. Gomez, last year you appeared before this Committee at 
a hearing examining S. 543, the Science Advisory Board Reform 
Act, which I introduced with Senator Manchin and Inhofe. At the 
time you testified that EPA's procedures for processing 
congressional requests to the Science Advisory Board did not 
comply with the law. GAO subsequently issued a report with four 
specific recommendations to ensure EPA compliance.
    Your written testimony for today's hearing indicates that 
EPA has not implemented the recommendations. The question is 
how can EPA go a year without adopting these common sense 
recommendations to ensure compliance with the law?
    Mr. Gomez. So, right, we made four recommendations in that 
report and the recommendations were focused on helping to 
improve the procedures that EPA has in place for processing 
congressional committee requests for scientific advice from the 
Science Advisory Board; and as we understand it, as of March of 
this year, EPA is developing a written process that would 
address our recommendations.
    We are waiting for that process to be completed so that we 
can then assess it and look to see if it addresses the intent 
of our recommendations. And our recommendations were very 
specific about the process that we believe EPA should have in 
place as it processes requests from Congress for scientific 
advice.
    Senator Boozman. So is this a budget issue, as to why they 
have not come forward?
    Mr. Gomez. We have not been told that is a budget issue. 
Our recommendations were about improving the process that they 
have in place. In some cases it wasn't well documented, so we 
don't see that it is a resource issue and they haven't said it 
is a resource issue there.
    Senator Boozman. And I guess that is an irritant of mine. 
We hear a lot about budgets and budgets are tight, but some of 
these things just don't get done; and, again, a year is a long 
time.
    On the topic of the EPA Science Advisory Board, I want to 
ask you about a requirement of the Fiscal Year 2016 omnibus 
that EPA develop a policy statement on Science Advisory Board 
membership that would incorporate the goals of increasing State 
and Tribal representation on the Science Advisory Board, as 
well as update its conflict of interest policy similar to what 
Senator Inhofe was asking Mr. Larsen.
    Per the omnibus, EPA was to develop the policy and submit 
to the GAO again for review in March. Has EPA submitted the 
statement to GAO?
    Mr. Gomez. EPA has not submitted that conflict of interest 
statement to us yet. The last we had heard was that they were 
reviewing it internally and it was due to us the end of April, 
but we have not received it yet.
    Senator Boozman. OK. So do they say the reason for the 
delay, then?
    Mr. Gomez. Only that it is currently being reviewed by the 
EPA Office of congressional and Intergovernmental Relations.
    Senator Boozman. And, again, this is another thing that 
doesn't seem to be driven by budget, but just simply not 
getting things done.
    Mr. Gomez. Yes, it is not a budget issue, as we understand 
it; it is going through their process. And I know that you had 
a timeframe for when it was due to GAO, and it is over that 
timeframe.
    Senator Boozman. Thank you.
    Mr. Larsen, IG plays an important oversight role in helping 
Congress improve programs by leading efforts to cut waste, 
fraud, and abuse across Washington. In the EPA OIG semiannual 
report to Congress, more than $6 billion was accounted for as 
insufficient or not documented as being provided to the EPA 
because EPA failed to have complete and accurate data. The 
report goes on to further describe the negative impact this has 
had on taxpayers, public health, and natural resources.
    Can you address the findings and explain to us how the EPA 
could mismanage $6 billion? Again, with us talking about the 
problem of not having the resources that some of these basic 
functions need to get done.
    Mr. Larsen. I understand the question and I am not going to 
pretend that I have the answer to each and every of the reports 
we have. I do have in the room our assistant inspector general 
for audit, or I can get back to you with a specific answer to 
that, but I don't have those facts at my fingertips.
    Senator Boozman. My time is up.
    Thank you, Mr. Chairman.
    Senator Rounds. Thank you.
    Senator Boozman. But I would appreciate it if you would get 
back to us.
    Mr. Larsen. Yes, sir.
    Senator Boozman. Thank you.
    Senator Rounds. Just thinking and listening to the 
testimony here and your responses to the questions, first of 
all, I appreciate the candid way in which you have responded. 
Second of all, I sense the frustration that members of this 
Committee have offered, both Senator Markey and also Chairman 
Inhofe and Senator Boozman. In each case there has been a 
frustration suggested, and I am just going to try to paraphrase 
this and see if there isn't something that we need to do about 
it.
    Three and a half to 4 years seems like an awfully long time 
in which to expect to have these things implemented as an 
average, regardless of whether it is with the EPA or with any 
other Federal agency. And at the same time, as Senator Inhofe 
had suggested, there was clearly a wrongdoing, one that you 
have pointed out and that you have asked for a response on, 
none of which has been forthcoming at this time.
    If there was one thing that would frustrate anybody who is 
concerned with appropriate application of law, protections, as 
Senator Markey has shared or as Senator Inhofe has indicated, a 
violation of a law in terms of how the money was spent, justice 
that takes that long to come through seems to me to be, as they 
would suggest, justice denied.
    I am just going to ask this, and, Senator Markey, I 
understand that you have another meeting that you have to be 
at, but I would give you, as Ranking Member, the opportunity to 
respond as well.
    Gentlemen, is there something that we should be doing here 
in order to expedite responses? Is there something we can do to 
actually get a more expedited response from not just EPA, but 
from other agencies as well, when those recommendations are 
there and clearly there is a time delay?
    Mr. Larsen. Senator, this is going to sound more 
bureaucratic than I intend it to be, but the structure that was 
created for the IGs allows us to make recommendations. We 
cannot order an agency to do anything. And it is left to them 
to decide what to do. Part of the independence that I was 
discussing with Senator Inhofe is that we report to the agency. 
We also report to the Congress. If the agency chooses not to, 
or is unable to, act, Congress is also aware of the 
recommendations we have made; and the way the process works, 
then, if Congress has the ability, if it chooses, to waggle its 
finger or take more strong action.
    Senator Rounds. Thank you.
    Mr. Gomez.
    Mr. Gomez. So our recommendations are exactly that, 
recommendations; they are not binding. I think what you are 
doing now is exactly what we would like, is to bring more 
attention to the recommendations. As I noted also, our reports 
are public. Anyone can go and look at the recommendations and 
look at the status.
    And I have to tell you that we get a lot of inquiries from 
lots of people asking what is the status of recommendations, so 
EPA is well aware of that; and that is one of the reasons why 
we have agreed to update the recommendations twice a year, so 
that we can try and bring closure to them or at least 
articulate why there is disagreement in some cases.
    Senator Rounds. Thank you.
    Gentlemen, once again I want to thank you for your 
testimony and just for taking the time today to be with us and 
participate in this hearing.
    I would also like to thank Senator Markey, my colleague, 
Senator Boozman, Senator Inhofe for being here.
    The record will be open for 2 weeks, which brings us to 
Tuesday, June 28th, and, with that, this hearing is adjourned. 
Thank you.
    [Whereupon, at 3:50 p.m. the subcommittee was adjourned.]
    [Additional material submitted for the record follows.]

            Statement of Hon. James M. Inhofe, U.S. Senator 
                       from the State of Oklahoma

    Thank you Subcommittee Chairman Rounds for convening 
today's oversight hearing, and thank you to our witnesses from 
the Government Accountability Office (GAO) and the 
Environmental Protection Agency's (EPA) Office of Inspector 
General (OIG) for being here to testify.
    Today's hearing is important because Members of Congress 
are charged with conducting oversight over executive agencies, 
such as the EPA, to ensure compliance with their statutory 
authority and mission in a manner free of waste, fraud, and 
abuse. EPA watchdogs such as the GAO and the OIG play a 
critical role in partnership with Congress to fulfill this 
oversight function.
    I have long valued this partnership as a frequent requester 
of both GAO and EPA OIG reviews and investigations, which in 
many cases result in recommendations for the Agency to enhance 
performance, create efficiencies, and safeguard taxpayer 
dollars. However, as testimony today reveals, EPA has been slow 
to implement OIG and GAO recommendations. For instance, GAO 
will testify that nearly thirty percent of EPA recommendations 
made between 2006 and 2011 remain unimplemented, and only 17 
percent of GAO's recommendations from 2012 to 2015 have been 
implemented. The EPA OIG's testimony similarly highlights a 
significant number of open recommendations; most recently 
reporting 148 unimplemented EPA recommendations, 89 of which 
are more than a year old.
    Among those unimplemented OIG and GAO recommendations, 
several are of great interest to the Committee's oversight 
efforts. For example, EPA has yet to implement various GAO 
recommendations regarding the Agency's procedures for 
processing congressional requests for scientific advice by the 
Agency's Science Advisory Board. Further, EPA has yet to 
implement nearly 2-year-old recommendations from GAO to improve 
its regulatory impact analyses, including updates to the way 
EPA estimates the impact its regulations have on employment. 
Finally, EPA still needs to implement various recommendations 
from the OIG to ensure its hiring process is sound in light of 
the John Beale scandal and the Agency's recent mass hiring.
    These outstanding recommendations are concerning as both 
the EPA OIG and GAO are in the midst of substantial reviews and 
investigations into the Animas River spill at Gold King Mine 
and the drinking water crisis in Flint, Michigan. Subsequent 
GAO and OIG reports will undoubtedly include numerous 
recommendations for EPA, yet based on testimony today I have 
little confidence EPA will fully and swiftly implement these 
recommendations.
    Indeed, today's hearing raises questions about why EPA has 
been late to implementing many common-sense recommendations. I 
have been concerned the EPA has been deviating from its core 
mission and focusing on pushing new regulatory actions that are 
political priorities of President Obama without new authority 
from Congress, as is the case with the Clean Power Plan and 
Waters of the U.S. rule, which have both been halted by the 
Courts pending judicial review.
    For these reasons, we need to engage with EPA watchdogs 
like GAO and the OIG to ensure they are effective and hold EPA 
accountable. Today is another step toward continuing that 
relationship.
    I look forward to hearing from our witnesses today who will 
share perspective on EPA's major challenges and how the Agency 
is implementing GAO and OIG recommendations.
    I ask that my full statement be entered into the record. 
Thank you.

                                 <all>
</pre></body></html>
